<html>
<title> - ENTREPRENEURIAL DEVELOPMENT: OBSTACLES AND OPPORTUNITIES FOR SUPPORTING, SUSTAINING, AND GROWING AMERICA'S ENTREPRENEURS</title>
<body><pre>[Senate Hearing 112-836]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 112-836

                 ENTREPRENEURIAL DEVELOPMENT: OBSTACLES
                   AND OPPORTUNITIES FOR SUPPORTING,
            SUSTAINING, AND GROWING AMERICA'S ENTREPRENEURS

=======================================================================

                               ROUNDTABLE

                               BEFORE THE

            COMMITTEE ON SMALL BUSINESS AND ENTREPRENEURSHIP
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 21, 2011

                               __________

    Printed for the Committee on Small Business and Entrepreneurship





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




         Available via the World Wide Web: http://www.fdsys.gov

                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

77-565 PDF                WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






            COMMITTEE ON SMALL BUSINESS AND ENTREPRENEURSHIP

                      ONE HUNDRED TWELFTH CONGRESS

                              ----------                              
                   MARY L. LANDRIEU, Louisiana, Chair
                OLYMPIA J. SNOWE, Maine, Ranking Member
CARL LEVIN, Michigan                 DAVID VITTER, Louisiana
TOM HARKIN, Iowa                     JAMES E. RISCH, Idaho
JOHN F. KERRY, Massachusetts         MARCO RUBIO, Florida
JOSEPH I. LIEBERMAN, Connecticut     RAND PAUL, Kentucky
MARIA CANTWELL, Washington           KELLY AYOTTE, New Hampshire
MARK L. PRYOR, Arkansas              MICHAEL B. ENZI, Wyoming
BENJAMIN L. CARDIN, Maryland         SCOTT P. BROWN, Massachusetts
JEANNE SHAHEEN, New Hampshire        JERRY MORAN, Kansas
KAY R. HAGAN, North Carolina
  Donald R. Cravins, Jr., Democratic Staff Director and Chief Counsel
              Wallace K. Hsueh, Republican Staff Director














                            C O N T E N T S

                              ----------                              

                           Opening Statements

                                                                   Page

Shaheen, Hon. Jeanne, a U.S. Senator from New Hampshire..........     1

                               Witnesses

Sanchez, Ami.....................................................     3
Dietz, Diane.....................................................     8
Rowe, Charles ``Tee,'' President and Chief Executive Officer, 
  Association of Small Business Development Centers..............    12
Schick, Holly I., Deputy Associate Administrator, Office of 
  Entrepreneurial Development, U. S. SMall Business 
  Administration.................................................    12
Snair, Scott, Program Director, New Jersey Veterans Business 
  Outreach Center................................................    12
Bottary, Leo J., Vice President of Public Affairs, Vistage 
  International, Inc.............................................    12
Yancey, Jr., W. Kenneth, Chief Executive Officer, SCORE..........    13
Weeks, Julie R., Chair of the Board, Association of Women's 
  Business Centers...............................................    13
Williams, Daryl, Chief Executive Officer, Urban Entrepreneur 
  Partnership, Inc...............................................    13
Tymes, Clinton, Director, Delaware Small Business Development 
  Center.........................................................    13
Shear, Bill, Director, Financial Markets and Community 
  Investment, Government Accountability Office...................    13

          Alphabetical Listing and Appendix Material Submitted

Bottary, Leo J.
    Testimony....................................................    12
    Prepared statement...........................................   107
Collins-Williams, Maureen
    Letter dated August 4, 2011, to Chair Landrieu...............   166
Dietz, Diane
    Testimony....................................................     8
Landrieu, Hon. Mary L.
    Prepared statement...........................................     4
Rowe, Charles ``Tee''
    Testimony....................................................    12
    Prepared statement...........................................   133
Sanchez, Ami
    Testimony....................................................     3
Schick, Holly I.
    Testimony....................................................    12
Shaheen, Hon. Jeanne
    Testimony....................................................     1
    Prepared statement...........................................    50
Shear, Bill
    Testimony....................................................    13
    Prepared statement...........................................    54
Small Business Administration
    Report titled ``Opportunities Exist to Improve Oversight of 
      Women's Business Centers and Coordination among SBA's 
      Business Assistance Programs''.............................    53
Snair, Scott
    Testimony....................................................    12
Snowe, Hon. Olympia J.
    Prepared statement...........................................     9
Tymes, Clinton
    Testimony....................................................    13
Weeks, Julie R.
    Testimony....................................................    13
Williams, Daryl
    Testimony....................................................    13
Yancey, Jr., W. Kenneth
    Testimony....................................................    13

 
                      ENTREPRENEURIAL DEVELOPMENT:
                      OBSTACLES AND OPPORTUNITIES
    FOR SUPPORTING, SUSTAINING, AND GROWING AMERICA'S ENTREPRENEURS

                              ----------                              


                        THURSDAY, JULY 21, 2011

                      United States Senate,
                        Committee on Small Business
                                      and Entrepreneurship,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:09 a.m., in 
Room 428-A, Russell Senate Office Building, Hon. Jeanne 
Shaheen, presiding.
    Present: Senator Shaheen.

 OPENING STATEMENT OF HON. JEANNE SHAHEEN, A U.S. SENATOR FROM 
                         NEW HAMPSHIRE

    Senator Shaheen. Good morning, everyone. I apologize for 
being a little late. I want to thank all of you for joining us 
this morning.
    I am really pleased to be here to discuss the 
reauthorization of the very important, as all of you know 
around the table, Entrepreneurial Development (ED) Programs at 
the Small Business Administration.
    I know you were expecting Senator Landrieu, but she is at 
another hearing. She has asked me if I could fill in for her 
for a few moments this morning and open the hearing. So, I am 
here to do that.
    I was especially pleased to be asked because the ED 
programs are very important to us in New Hampshire. As you all 
know, they provide terrific technical assistance and counseling 
to small businesses; and for us in New Hampshire, that is 
absolutely critical.
    We are a state where 95 percent of our businesses have 
fewer than 100 employees. We are clearly a small business 
state; and last year SBA resource partners, including the Small 
Business Development Centers and SCORE, provided assistance to 
over 6500 small businesses in New Hampshire.
    By Louisiana standards, that may not be a lot but by Maine 
and New Hampshire standards, as Senator Snowe would know, if 
she were here, that is a lot for a small state. So, I am glad 
that these programs are a priority for Senator Landrieu and 
this Committee.
    Our goal is to ensure that these programs are as efficient 
and as effective as possible, and that they provide the 
necessary resources to carry out their goals and 
responsibilities.
    I want to take just a few minutes to talk about some of 
these important programs. This past March this Committee held a 
roundtable to discuss the reauthorization of SCORE, which as we 
all know is a nonprofit association dedicated to counseling and 
mentoring entrepreneurs across the country.
    At that roundtable, we heard from several small businesses 
that have benefitted from SCORE's counseling, including a New 
Hampshire business. We had Sheree Burlington from Manchester, 
who was here to talk about the difference that it made for her.
    She told me that without SCORE's counseling she would not 
have survived the recession, and not only has that counseling 
helped her to survive, but she has actually expanded her 
business and grown over the past two years and added some 
employees.
    Success stories like Sheree's are common with SCORE which 
maximizes a small federal investment of $7 million to help tens 
of thousands of entrepreneurs start and grow their businesses.
    SCORE works by leveraging private sector resources and 
knowledge through a network of over 13,000 volunteers and 355 
chapters nationwide.
    I am very pleased to have Ken Yancey here, who is the CEO 
of SCORE. Nice to have you here, Ken. He is going to talk about 
some of his ideas for what we can do to support and build 
SCORE's capacity in a responsible manner.
    Another integral component of the SBA network of training 
and counseling services is the Small Business Development 
Centers. With over 1000 locations, SBDCs offer a one-stop shop.
    They provide a wide variety of information and guidance in 
easily accessible branch locations, and again this is something 
that I know very personally from what I have seen in New 
Hampshire, what a difference the SBDCs make.
    I am glad to have Tee Rowe, President and CEO of the Small 
Business Development Centers, here with us. Nice to have you 
here, and I look forward to hearing your ideas to ensure how we 
can continue to provide consistent quality services.
    In addition to SBDCs and the SCORE, we also have 
representatives from a Women's Business Center and Veterans 
Business Centers, both of which do so much to support 
entrepreneurial women and veterans.
    As we continue to tackle the tough issues that are facing 
small businesses in this time of economic recovery, we all know 
that it is critical that we do so in a fiscally responsible 
way.
    To meet that responsibility, we have to continue to examine 
our small business programs. We have to make sure they are as 
effective and efficient as they can be, but we also have to 
look at ways in which we can better leverage our public and 
private sector resources.
    Last Congress I was very pleased to join Senator Landrieu 
and Ranking Member Snowe in cosponsoring S. 1229, the 
Entrepreneurial Development Act of 2009, which would have 
provided SBA resource partners, many of whom are represented 
here today, with the tools they need to help entrepreneurs 
create, manage, and grow their businesses.
    The legislation was similar to provisions which have passed 
this Committee over the last several Congresses, and we hope to 
build on those previous efforts in developing comprehensive, 
entrepreneurial development legislation.
    For the ineffective programs, we hope to find ways to 
figure out how we can make those more effective or change them 
so that we can utilize every possible resource to operate 
effectively and efficiently. That is why your testimony today 
and your ideas will be so important.
    Unfortunately, like Senator Landrieu, I also have another 
hearing that is going on at this point. So, I am going to have 
to leave and turn it over to Ami Sanchez, who is with Senator 
Landrieu's staff, and also Diane Dietz with Senator Snowe's 
staff, to provide opening remarks on behalf of the Chair and 
Ranking Member. I would ask Ami to go over the format for 
today's discussion as well.
    Ami.
    Ms. Sanchez. Thank you, Senator.
    Chair Landrieu asked me to extend her sincerest 
appreciation for your continued leadership and commitment to 
addressing the critical issues facing small business today 
particularly on those issues that we will be discussing in 
today's roundtable. Thank you very much for that.
    Senator Shaheen. Thank you. I look forward to seeing the 
written testimony of what everyone has to say this morning.
    Thank you all.
    Ms. Sanchez [presiding.] Thank you, Senator.
    As Senator Shaheen mentioned, my name is Ami Sanchez, 
counsel to Chair Landrieu here with the Committee. With me is 
Diane Dietz, professional staff member to Ranking Member Snowe.
    Senator Landrieu deeply regrets not being able to make it 
today. As Senator Shaheen mentioned, she had a couple of other 
hearings simultaneously but really wanted to be here and wanted 
to convey her appreciation to you for contributing to today's 
important discussion.
    As Senator Shaheen stated, we will be discussing the 
reauthorization of the SBA's Entrepreneurial Development 
Program and building on the work that we have done over the 
last several Congresses including the reauthorization bill from 
the last Congress, S. 1229.
    Today's discussion is important to not only evaluating the 
effectiveness and efficiency of the programs and soliciting 
your ideas on how we can make those programs better, but also 
to build a sufficient record in support of the value and need 
for the services that these programs provide to small 
businesses.
    Chair Landrieu has made entrepreneurial development one of 
her top priorities in this Congress and is continuing to work 
with her colleagues to come up with a comprehensive 
entrepreneurial development reauthorization bill.
    As leaders in the field of entrepreneurial development, 
your participation in today's discussion is critical and 
invaluable. So, thank you for being with us today.
    Senator Landrieu has prepared an opening statement which we 
will be submitting for the record.
    [The prepared statement of Chairman Landrieu follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Ms. Sanchez. Diane, do you want to say anything on behalf 
of Ranking Member Snowe?
    Ms. Dietz. Thank you, Ami. I would just echo Ami's remarks 
and say that I think many of you, as we were speaking this 
morning, have been long champions of the small business 
community. So, everybody knows everybody here, and it is 
certainly well-known that Senator Snowe has been a champion of 
small business throughout her tenure in the Senate.
    Senator Snowe has prepared an opening statement that I will 
submit for the record, and I would also like to thank each of 
you for making the effort to join this morning's roundtable, 
and my sincere thanks to Senator Shaheen for her eloquent 
statement.
    [The prepared statement of Senator Snowe follows:]


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Ms. Sanchez. Thanks, Diane.
    I would like to begin by going over the format for today's 
roundtable. We have a good foundation for a reauthorization 
bill that we are going to work on based on the work that we 
have done over the last several Congresses.
    If anyone has ideas for changes from the last bill or 
recommendations on things that we can include or improve upon 
moving forward, today is the day to make your case.
    Diane and I will be reporting back to Chair Landrieu, 
Ranking Member Snowe, and other members of the Committee on 
today's discussion and we will be using this discussion to 
really develop the bill to make sure that it is appropriate and 
an effective bill for building on the programs currently.
    We will keep the record open for two weeks, so, August 4 is 
the deadline if you would like to submit additional materials 
or information.
    Given the breadth of the things that we want to cover in 
today's roundtable, it is important that the focus of today's 
roundtable stay on constructive ways to improve coordination 
and effectiveness of these programs.
    In order to ensure that we are able to cover all the items 
on today's agenda, I ask you please make your remarks and 
answers as brief as possible to allow for everyone to be able 
to contribute to the record.
    Also to be recognized to speak, I ask that you please stand 
your name card up long ways if there is a question or an answer 
that you would like to address and/or something that you would 
like to add to the record on a particular issue.
    Also when you speak, please make sure that your microphone 
is on, and you can do that by pressing the talk button right in 
front of you.
    At this time I would like to ask each of the participants 
to state their name, title, and organization for the record. If 
we could start with Tee and just work around.
    Mr. Rowe. I am Tee Rowe. I am the President and CEO of the 
Association of Small Business Development Centers. We represent 
the entire network of 63 leads and over 1000 centers from Guam 
all the way to Maine.
    Ms. Schick. Good morning. I am Holly Schick. I am the 
Deputy Associate Administrator for the Office of 
Entrepreneurial Development in the Small Business 
Administration, and thank you for the opportunity to be here.
    Mr. Snair. Good morning. I am Scott Snair. I am Director of 
the New Jersey Veterans Business Outreach Center. I help 
veterans with business plans and registering for targeted 
contracts with the Federal Government. I do so in New York 
State, New Jersey, Puerto Rico and the Virgin Islands, although 
my budget does not allow me to travel to those last two places.
    And thank you so much for having me. My headquarters is 
based at Rutgers Business School in New Jersey.
    Mr. Bottary. My name is Leo Bottary. I am Vice President of 
Public Affairs for the Vistage International. Vistage is the 
largest for-profit CEO membership organization in the world. We 
operate here in the U.S. with about 10,000 members and about 
15,000 members in 15 countries.
    And thank you very, very much for having us today.
    Mr. Yancey. I am Ken Yancey. I am CEO of SCORE, and like my 
colleagues, thank you for allowing us to join you today.
    Ms. Weeks. My name is Julie Weeks. I am the Chair of the 
Board of the Association of Women's Business Centers, 
representing all 110 Women's Business Centers across the 
country.
    And like my colleagues before, thank you very much for this 
opportunity.
    Mr. Williams. Good morning. My name is Daryl Williams. I am 
CEO of the Urban Entrepreneur Partnership, a program of the 
Kauffman Foundation. We are in seven different states.
    And thank you for allowing us to be here to testify today.
    Mr. Tymes. Good morning. My name is Clinton Tymes. I am the 
State Director for the Delaware Small Business and Technology 
Development Center in Delaware, housed at the University of 
Delaware, and obviously a member of the Association with Tee.
    And thank you for having me here today.
    Mr. Shear. Good morning. I am Bill Shear. I am Director of 
Financial Markets and Community Investment at the Government 
Accountability Office, better known as GAO, and it is always a 
pleasure to be here, and thanks very much for the invitation.
    Ms. Sanchez. Great. Thank you.
    In order to get a better idea of the various programs, the 
current core ED programs that are offering services to small 
businesses, if I could ask our resource partners that are 
represented here today, that is SBDC, SCORE, Women's Business 
Centers, and veterans business centers, to briefly describe the 
types of clients you typically serve and the types of services 
you provide. And if you could, in your answer please clarify 
what percentage of your services focuses on counseling, what 
percentage focuses on training and, to the extent that you do 
this, what percentage focuses on mentorship.
    Tee.
    Mr. Rowe. Sure. I will start.
    Well, and I will let Clint chime in to correct me because 
everybody is a little different. We have 63 networks. So, it is 
hard sometimes to paint with a broad brush.
    I would say that the typical client of an SBDC tends to 
have been in business longer, a couple of years or more. That 
being said, we have approximately 50 percent of our clientele 
nationwide that is what the SBA calls pre-venture which is that 
zero days to one year range.
    The majority of the services that an SBDC provides are 
counseling. I would say that is 80 percent. About 20 percent is 
training.
    Mentorship is kind of a, it is a tough thing to define for 
us. Because we work in and with business schools, a lot of our 
networks do have mentoring but I would not call it a formalized 
system in any way, shape, or form.
    As to what the typical client does business-wise, we help 
everyone in everything from biotech and software development to 
machine shops and restaurants. And I do not think there is any 
particular way to categorize the small businesses.
    Clint.
    Mr. Tymes. I agree with Tee because one of the things about 
the SBDC program is that we all are different in that we meet 
the needs of our particular state, and that is the way we 
design our programs.
    So that if, you know, whatever the state, the economic 
development agency or the governor, their priorities are in 
terms of economic development, we form our programs to meet 
those objectives as well.
    So, that is why you will never get any two that are ever 
going to be the same. Tee mentioned that it is a 50-50 between 
pre-venture and existing.
    As in Delaware, 70 percent of ours is existing; 30 percent 
is pre-venture. But that is all by design using resource 
partners, you know, et cetera. But it is all designed to meet 
the needs and priorities of each state.
    Ms. Sanchez. Thank you.
    Ken.
    Mr. Yancey. Thank you, Ami.
    At SCORE our mix of services are roughly 55 percent 
counseling and mentoring. The balance are workshop 
participants. We mentor both face-to-face as well as online, 
the same with our educational offerings. They are both face-to-
face and online.
    Our clients, we break them into roughly thirds. A third are 
nascent or new to business, have yet to start. A third is zero 
to one year, and a third already in business.
    At the end of a year, what we find is typically two thirds 
are in business with the balance being in that nascent or 
startup category.
    The services that we offer obviously are the one-to-one 
counseling much like our colleagues at SBDC, available face-to-
face and online, as I mentioned, as well as a series of 
workshops or seminars, last year almost 10,000 total seminars 
across the country that we offered.
    In terms of size of business quickly, typically less than 
three years. Those that are in business and less than five 
employees.
    Ms. Sanchez. Thank you.
    Julie.
    Ms. Weeks. I would like to draw attention to not only those 
of you around the table but people in the audience that the 
Association of Women's Business Centers just completed a survey 
among all of the Women's Business Centers, a summary of which 
is over on the table to the side.
    We have had discussions with not only the Senate staff but 
on the House side too about the need for better metrics. As of 
fiscal year 2010, Women's Business Centers helped 160,000 
clients around the country which is actually 24 percent higher 
than SBA's estimates because the Women's Business Centers 
provide more services than can kind of fit into the EDMIS 
forms.
    According to that survey, 58 percent of the clients are 
socially and economically disadvantaged; 39 percent of them are 
persons of color; 81 percent of them are women, meaning 19 
percent of them are men.
    Part of the reason for that is not only, I mean, it is open 
for all. Anybody who wants to come in, but our services are 
different in a lot of ways. It is much more relational, not so 
much transactional. It is a long-term relationship. And a lot 
of people, women and men alike like that.
    Also as of this year, 41 percent of the clients of Women's 
Business Centers are pre-start, nascent entrepreneurs; 25 
percent are in the startup phase; and 35 percent are in 
business.
    That is a shift from a few years ago. There are more women 
in business, active business owners. And that is again because 
sort of like once a client always a client. A lot of women come 
in when they are thinking about starting a business. Then they 
will come back for more. Then they will maybe train or become a 
mentor. So, it is a longitudinal kind of a relationship.
    We also asked in the survey about what services do you 
provide to your clients. A hundred percent of the Women's 
Business Centers provide one-on-one counseling; 100 percent of 
them also provide training classes in basic business skills, 
the ABCs of starting a business; 92 percent are providing 
classes in advanced topics, procurement, certification of your 
business, doing international trade, you know, selling to 
corporations, a wide range of growth oriented programming.
    Seventy-two percent provide loan packaging or linkages to 
lenders so it is access to capital as well as training and 
technical assistance; 67 percent are providing peer mentoring 
opportunities.
    There are an awful lot of mentoring circles that are formed 
by cohorts of women who are going through classes. Group 
counseling, 53 percent of people who want to kind of learn to 
gather in a group, not just a training session; 35 percent 
women's business certification such as with WBENC, and 13 
percent also provide business incubator space which is, you 
know, a very good way for startups to provide low-cost overhead 
and also to share and mentor with others.
    So, that is the variety of what Women's Business Centers 
do.
    Ms. Sanchez: Thank you.
    Scott.
    Mr. Snair. Typically, a Veterans Business Outreach Center, 
of which there are 16 in the United States, has several hundred 
veterans, I would say, split evenly between veterans starting 
up and veterans who currently own their business and either 
want to (a) expand and hire more veterans or (b) want to 
register themselves as either disabled veteran-owned businesses 
or veteran-owned businesses so that they can partake in some of 
the targeted contracting that exists for veterans on the 
Federal level with, for example, the Department of Defense, 
Department of Transportation, or the VA itself, and then 
finally the Department of Labor.
    Something I was very surprised to find when I started this 
center a year and a half ago was that many veterans who came to 
me had been diagnosed as incapable of functioning at a regular 
workplace either due to severe physical disabilities or due to 
mental health issues.
    And let me tell you, when a veteran walks in and says, hey, 
pal, you are all I have got, you know, hopefully I can start a 
business with your help, it is very touching.
    When you see somebody like that make a go of it by securing 
an SBA-backed loan and going forward with really a clever idea 
that allows that person to work out of his home or out of a 
shop, it is very rewarding and very touching.
    I do not have the numbers comparable to, for example, a 
Small Business Development Center, but I would say it is a very 
specialized population, and I do want to say the numbers are 
growing exponentially.
    It took me a year to get to a little over 100 clients but 
it only took me a year and two months to get to 175 clients. 
So, I think the word is getting around.
    To answer your specific question about training versus 
mentoring, I would say to the extent that sitting with a 
veteran and writing one-on-one his or her business plan that he 
or she can go before a lender with, I would say that falls 
under counseling.
    Maybe one-on-one training regarding how to maneuver the 
roadblocks the center for veterans enterprise has kind of put 
up hoping to screen out fraudulent veterans organizations, you 
know, showing them the right way to register so they actually 
secure that registration, I would call that one-on-one 
training. And again, I would say about half and half.
    Ms. Sanchez. Great. Thank you.
    I would like to go to SBDCs and SCORE. Given the current 
budgetary climate, I think it is very important that we have a 
clear understanding of SBDC and SCORE's funding structure at 
the national level.
    Could you just describe that structure, that funding 
structure; and if you could, delineate what percentage of your 
funding comes from federal sources, what percentage comes from 
state and local government but not federal sources, and what 
percentage comes from nongovernment and/or private sector.
    And for private sector, if you are able to split up how 
much you utilize volunteers as part of that private 
contribution and what is remaining.
    Mr. Yancey. Thank you, Ami.
    As you well know, the appropriation that SCORE receives 
from the Congress is $7 million and represents roughly 52 
percent of our total funding on an annual basis.
    Our chapters raise between $3.9 and $4 million a year in 
support for the SCORE program. That comes from workshop fees, 
seminar fees, as well as donated revenue.
    Our foundation also contributed in 2010 $2.8 million or 
roughly 20 percent of our total funding, and total funding for 
the year was just over $14 million.
    We also received in-kind support from various organizations 
to help us with technology or space or other needs. Like our 
colleagues in ED, we estimate in 2010 that the value of that 
in-kind support was roughly $2.4 million.
    We do not, for the purposes of reporting, capture a value 
of our volunteer time. SCORE volunteers in 2010 gave 1.3 
million hours of service. Depending on how you value that 
service, Independent Sector which is one of the most prominent 
volunteer organization conglomerations, associations, whatever 
you want to call it, estimates that on average the value of a 
volunteer hour of time in the U.S. is roughly $18. If you look 
further, you will find that volunteer management technical 
assistance runs somewhere between 70 and $80 an hour.
    So, you would be looking between $18 to $20 million and 
about $100 million in terms of value of the contribution of a 
SCORE volunteer from a time standpoint. But again, it is not a 
number that we accumulate and report on from an audit 
perspective.
    Ms. Sanchez. Tee.
    Mr. Rowe. Well, SBDCs, as you know, receive a regular 
appropriation from Congress. Last year it was $112,200,000 I 
think after the recission. But for the last fiscal year, full 
fiscal year 2010, it was $113 million.
    In the core program $107.5 million of that was what we call 
sort of our foundation. On top of that the SBDCs receive about 
$150 million in cash contributions from their host 
institutions, state and local governments.
    On top of that is in-kind contributions that a lot of SBDCs 
no longer track simply because, as Ken said, tracking volunteer 
hours, it gets to be essentially a budget nightmare. And as the 
SBDC program has grown over the past 30 years and we have 
developed the relationships with the host institutions, the 
cash match as appeared, where the statute says it can be 50-50 
cash and in-kind, it has essentially become one-to-one cash, 
and in-kind is the other side of the coin.
    To give you a rough idea, I would venture to say that the 
total value that we leverage the $110 million, $112 million 
into it is over $300 million in services to small businesses.
    Again, I cannot quantify the value in the hours at a 
college or university when a business school professor is 
lending his or her time in helping one of our counselors. Our 
counselors are doing over a million and a quarter hours of 
counseling.
    On top of that, they are getting assistance from the 
schools. Frankly, we just, yeah, it would be an accounting 
nightmare to figure it out exactly. But it is safe to say that 
the support from Congress is being leverage at least two to 
one.
    Ms. Sanchez. Clinton.
    Mr. Tymes. Let me just add to what Tee says. At the 
university we do not track in-kind either because it just has 
become a nightmare.
    But just using Delaware as an example, our overall budget 
is about $1.25 million when you put all of the programs 
together. Our base funding from SBA is $627,000.
    So, we have been able to leverage that with state funding, 
with support from the university and the private sector, you 
know, well over $900,000. That is just in Delaware.
    Mr. Rowe. If I could just chime in quick because I got a 
little pie chart from one of our SBDCs. It is Oregon but it is 
a very good example.
    49.5 percent of their funding is coming from states and 
local; 34 percent is the federal funding, and the other 15 
percent is private sector support, et cetera.
    Now, that private sector support sometimes varies wildly. 
Last year--now, this year things in California, apparently 
their budget is in better shape. So, they will be receiving 
support from the state. Last year, the six SBDCs in California 
received no state support but got all of their match from 
private sector support: foundations, chambers of commerce, 
banks, private industry.
    So, it does fluctuate but obviously the SBA support is that 
seed corn to everything we do.
    Ms. Sanchez. Diane, do you have questions?
    Oh, I am sorry.
    Ms. Weeks. I just wanted to chime in even though Women's 
Business Centers are a drop in the bucket compared to those 
budgets, the $14 million from the Women's Business Center 
program we have estimated it as leveraged up to $60 million in 
overall program activity because of the fact that on average 
the Women's Business Center budgets, 39 percent comes from the 
SBA. The rest come from other federal money, state money, 
corporations, program revenue, other sources, that sort of 
thing.
    The average budget for a Women's Business Center is about 
$500,000. It ranges from a low, in our survey, of $100,000, and 
that is probably one that just got started at the beginning of 
a fiscal year, up to the biggest one is like a $3 million 
budget. So, there is quite a wide range.
    And I should also add that there is a five to one ratio of 
volunteers to paid staff. On average, our Women's Business 
Centers have four paid staff and five times that many 
volunteers. We do not track the hours of the volunteers but we 
are leveraging a lot of money and sharing a lot of staff with 
SBDC, SCORE counselors, and that sort of thing.
    Ms. Sanchez. Diane.
    Ms. Dietz. Thank you, Ami.
    I would like specifically to ask Tee, and I appreciate Ami 
setting the stage for us. As you all know, this is a political 
environment where the debt ceiling conversation is ongoing and 
will continue in the coming weeks, and budget cuts are 
particularly necessary to alleviate the federal deficit. 
Because each of you understands budgets and understands the 
limitations of those budgets, I believe you are very wisely 
leveraging that money.
    But I would like to ask Tee, under the current financial 
situation that we find ourselves in, what are the challenges 
faced by the SBDC program?
    For example, I know that SBDCs received a 9 percent cut, 
although you did receive $50 million in the Jobs Act that eased 
that cut. So, I am curious because in this budgetary 
environment, you do handle a tremendous amount of outreach to 
the small business community.
    What are the challenges you are seeing right now when we 
are looking at a jobs report where unemployment is unmoved from 
the month previous?
    Mr. Rowe. Well, the 9 percent was proposed in SBA's budget 
in the last fiscal year. Under the continuing resolution, we 
essentially stayed the same. There was that small recission.
    I think the continuing issue that SBDC's members have is 
always going to be making sure you acquire the match and the 
support from the host institution. Now, a small state, for 
example, like Delaware or Maine, has a base level of funding in 
the formula of about $627,000. Then they have to go out and 
match that.
    In a fiscally challenged state budget, you know, 
Connecticut is a good example, but sometimes you are scrambling 
for loose change in New Hampshire and Maine too.
    Those are probably the biggest single issues. So, we are 
always trying to work with our members to develop additional 
sources of assistance.
    The accreditation process which is the, I guess for lack of 
a better word, we used to call it the certification process. 
The accreditation process for SBDCs, one of the key tenets is 
that there has to be a solid commitment from your host 
institution, whether it is the University of Delaware or the 
University of Maryland or the University of Georgia or the 
State of Ohio or whomever, they have to be committed to you, 
committed to your mission which brings up what Clinton said.
    The SBDC ends up being integral to the state's economic 
development plan; and if you are not integral to that, then you 
have got a problem; and it is becoming part and parcel of that 
that drives us to make sure that we are integral to the state's 
plan, they have the support, and that the support continues 
from SBA.
    It is a symbiotic sort of a thing. If the federal support 
were to diminish, it unfortunately has a ripple effect that 
sends a bad message the other way to the host institution. You 
know, if SBA and the Congress do not think you are worth it, 
why should we pony up.
    Ms. Dietz. Well, knowing how important the dollars are from 
the SBA to leverage that money, when supplemental funding is 
available, how important is it, Clinton, for you in a state 
like Delaware on base funding to sort of be able to tap into 
those funds? I know it is per rata, if at all, and that is 
based on population and the number of people you are serving.
    But you are in a very base budget here. It sounds like you 
have a big mission and you are really making those dollars 
work. So, how important is not only your funding but the 
possibility of supplemental funding?
    Mr. Tymes. Critical. You know, I mentioned the numbers that 
we are able to leverage, and we are able to leverage that 
because we can go to the state, et cetera, and say we are 
leveraging two or three times. So, at that point it becomes 
critical.
    In terms of supplemental, it is important to us. This year 
I must say it is not pro rata from my understanding. If it is 
pro-rata it would be absolutely tremendous for us. But from my 
understanding the way that it is set up----
    Ms. Dietz. What would you do with it? What would you do?
    Mr. Tymes. What would we do?
    Ms. Dietz. Hypothetically of course.
    Mr. Tymes. Number one, we have an opportunity. Tee 
mentioned becoming an integral component of economic 
development for our state and our host institution, and what we 
would do is the following.
    One, the Delaware SBDC is a unique model, a unique model in 
that we are housed not in the college of business and economics 
but we are housed within the technology transfer office of the 
university which drives innovation to the market place. So, we 
are unique.
    We have been able, because of our technology designation 
and a number of other things, to be at the table what we call 
the intellectual property committee which determines the future 
of all innovation at the university and the state.
    Now, we are at that table. What we are going to use those 
dollars for is to increase our capabilities to make sure that 
we are able to stay at the table and continually contribute to 
those missions.
    So, professional development in terms of different business 
development strategies and different intellectual property 
strategies so that we become ingrained again to Tee's point and 
become an integral component of the university.
    They have recognized that, and during tough times, yes, 
they have come to the table recognizing the value that we 
contribute there.
    So, that is how we would use those dollars again through 
increasing the capabilities and resources for databases to 
determine the market feasibility of new and innovative 
technologies so that one can make a decision whether or not to 
go forth with the patenting process, as an example. Should we 
license or should we do a spin out at the university in terms 
of a small company.
    So, that is how we would use the dollars and again become 
an integral component, an indispensable component of the 
economic development strategies of our host as well as the 
State of Delaware.
    Ms. Dietz. Excellent. Thank you.
    I just have one more question and then I will turn it back 
over to Ami. And that is for Ken.
    Ranking Member Snowe loves SCORE. SCORE is a wonderful 
program. It is literally powered by the sheer determination of 
volunteers who have a wealth of knowledge, and just as Ami 
mentioned when we had our SCORE reauthorization roundtable a 
couple of months ago, we had nothing but people singing its 
praises.
    Ranking Member loves that you take a team of volunteers 
with a small amount of money and you send them out and they do 
fantastic work.
    My question is in fiscal year 2010 SCORE distributed $2.5 
million of the $7 million SBA federal appropriation to the 
districts and the chapters that are delivering these services.
    And I am wondering if the lack of specific direction in the 
Small Business Act or by the SBA is something that we should 
address because my understanding is that yourself and the COO 
of SCORE actually makes that determination.
    Can you kind of describe to me how the budget is broken 
down and how that money gets out and how much typically gets 
out because it sounds like you had a $14 million leverage over 
all of the program?
    So, can we talk about, as the discussions go on about 
expanding SCORE, how the breakdown would be, would we get more 
money to the states?
    Mr. Yancey. That is a very good question, and we certainly 
appreciate the Senator's support.
    Today, the way that we distribute the budget is based on 
performance from a field standpoint. We do set a dollar amount 
cap that will be distributed directly to the field for their 
purposes in spending.
    That is done based on volume. It is done based on growth. 
It is done based on market penetration; and then as you know, 
we hold out a percentage that we allow ourselves to make 
adjustments.
    Adjustments are based on the impact of change in a market 
place that are due to reasons that may or may not be 
controllable by our volunteers.
    New Orleans was a good example many years ago with the 
hurricane. Most of our volunteers moved away and did not come 
back. But we knew that we needed to invest more there to make 
sure that we could re-establish and be valuable and help with 
recovery. So we did. That is the way that is used.
    In the event that there could be agreement that SCORE would 
receive additional funding, the answer is absolutely yes, more 
money would go to the field.
    In terms of total going to the field, roughly two-thirds of 
the budget goes to the field directly and indirectly. Indirect 
support includes things like the materials, publications, Web 
sites, other educational pieces.
    The requirements, the data collection requirements that we 
have under EDMIS through our own system, all of that is 
provided by a national system. This support is an indirect 
contribution.
    We do look also to expansion opportunities, and in the 
event that we had additional funds in 2012 or beyond, we would 
be looking at markets where we believe we can do more and 
better which, quite frankly, include just about every market we 
are in.
    The ability and the need for us to expand and partner and 
figure out ways to better leverage existing services that are 
in a market, whether it be a Women's Business Center or an SBDC 
or any other, Chamber of Commerce or any other program I think 
is important.
    That would include, and I know the Senator is particularly 
sensitive to, the needs of rural communities. We believe that 
we can partner with anchor organizations that are already 
existing in those communities and provide services beyond what 
is already available.
    Correct, like the people here.
    And offer sometimes unique services that might not already 
be there. For example, while the Women's Business Center may 
have a fantastic presence in a small market, they may not have 
an expert in international trade. If they don't, I do; and I 
have the ability to get that service to that market in an 
electronic fashion either over the telephone or, in many 
instances, face-to-face.
    So, we believe that we can provide skills, unique skills 
and abilities, and talents that are not resident and can work 
with anchor organizations that are already in place to continue 
to add value in those communities.
    And assuming that there would be an increase, we would 
certainly use funds to do those things.
    Ms. Sanchez. Great. Thank you.
    We have two representatives from the entities that provide 
these types of services that are not officially SBA resource 
partners. One, like UEP in the nonprofit world and then a for-
profit representative.
    I would like to ask you two if you could provide a 
background on what your entities do, how you provide your 
services. And really for Vistage, I would like if you could, to 
the extent that you provide mentoring not just from experience, 
chairs or counselors, but amongst each other in the businesses 
that are part of your organization, how important is that to 
the success of what you are doing?
    Mr. Williams. Again, thank you for having us here. The UEP 
is a program of the Kauffman Foundation out in Kansas City, 
Missouri, and our focus is a little bit different.
    We have touched locally all of your organizations at one 
point or another in our work that we do. But we look at 
ourselves as an extension of the work that the SBA programs do 
because we focus on scalable firms in underserved areas.
    So, that is our mission, to really try to move that needle. 
And so, we work in a different kind of model where we think 
mentoring and coaching are both important but they are 
different. So, we separate those. We think volunteer and paid 
employees are both important but we separate those as well.
    And we work on the side of the coaching and the paid 
coaches, on that model, because our businesses are probably at 
a different stage than some of your businesses, although we get 
some of those clients that come into our doors and we refer 
them out to some of your organizations.
    And so our focus is twofold. One, we want to make sure that 
we have the stats behind what we do in terms of trying to 
extract the best practices. So far we have trained 
approximately 2000 entrepreneurs.
    We have offices on the Gulf Coast. We have a small amount 
of local government funding there but most of our funding comes 
from foundations, and we have increased the profitability by 
these clients by 24 percent over the past five years and their 
revenues about 44 percent.
    We collect over 250 variables on every entrepreneur. We 
want to make sure that we understand what these levers of 
success are so when we go to replicate, you know, that we are 
extracting the best practices.
    But I think that it is very important in terms of working 
with these other organizations. I mean, I think there is a 
linear path. I think sometimes we may get caught up in our 
organizations as opposed to what is best for the clients.
    And when you look at clients that are out and we have the 
ability to, say, we have a better mousetrap, the 
entrepreneurial dream, there should not be any seams in that 
process. It should be from startups, from the small veterans 
that can move to SCORE, that can move.
    But I think on the other side of the lever I think Mr. 
Bottary here and what the UEP does, we do not have a lot of 
government support. So, when the entrepreneurs get to that 
level, for example, in Detroit we are working with 150 of the 
top minority auto suppliers. Their revenues range from $1 
million to $500 million.
    So, we have businesses at that level that we are trying to 
help and transform or diverse their manufacturing portfolio, 
and we do not have any government support to do that. It is all 
philanthropic.
    I think it is important because at the end of the day what 
we are all looking for is impact on communities in terms of the 
economic impact.
    I think anything we can do to create that linear process 
with a seamless integration from the beginning to the end, 
because we know no small businesses create all those jobs, and 
you know, that is the economic engine that will bring us out of 
this recession.
    Anything we can do to encourage that I think is important.
    Ms. Sanchez. Great. Thank you. I appreciate that and maybe 
there are some things we can learn in how you are utilizing 
your approach to serve small businesses in that. So thank you.
    Mr. Williams. Absolutely.
    Ms. Sanchez. Leo.
    Mr. Bottary. Vistage has been around since about 1957. Some 
of you may know it as TEC, which was The Executive Committee. 
It changed its name back in 2006.
    Probably to look at the audiences we serve, we could break 
them up into four groups. Largely they are chief executive 
officers of companies that are usually in excess of 25 
employees in the $5- to $50 million range. We do have about 
just over 900 companies that would be over $50-million and 
about 300 of those over $100-million in size.
    The next group would be CEOs of what we call small business 
in terms of our SB group or $1- to $5-million companies under 
25 employees.
    Next we serve key executives. For many Vistage CEOs who get 
the value of the Vistage experience, what they want to do is 
make sure that maybe some of their key executives get that as 
well. So, it helps kind of improve the bench strength of each 
of these companies. So, key executives are a third group.
    And fourth are trusted advisors. Those are typically those 
who counsel and provide consulting services to CEOs.
    So, as a member, for example, so let us say I am a chief 
executive of a $5- to $50-million company. I would be part of a 
peer advisory group.
    So, in my city or county or wherever I am, I would be part 
of a group of 12 to 16 CEOs that would be led by a Vistage 
chair who is also a former CEO and our Vistage chairs go 
through very extensive training not only prior to becoming a 
Vistage chair but throughout.
    And they facilitate these group sessions where effectively 
CEOs who are otherwise just sitting in the chair alone having 
to make decisions for the good of their organization want the 
benefit of being part of a group where these CEOs are not 
competitors.
    By definition, we form these groups in a way where there 
are no competing companies but yet at the same time they share 
very common challenges and they worked together to do that.
    The second part of the Vistage experience is they get one-
to-one coaching. That chair provides them monthly one-to-one 
mentoring session throughout the year.
    Third, these group meetings that I am talking about are 
full day sessions. They meet once a month and for eight of the 
twelve months, there is a Vistage speaker. We have about 800 of 
them in our stable of, I think, world-class speakers who speak 
to topics that the chair believes are most relevant to the 
group.
    So that is their training. They are very intensive 
workshops. They typically last the morning, and then I would 
say the next leg of the stool here really comes in the form of 
what we talk about as content and connectivity.
    So, whether it is through our Web site or white papers or 
all the ways, they can engage the content that we can provide 
our members; and in addition, they network with one another on 
everything from national conferences to all-city meetings to 
online engagement.
    I guess, getting to the third part of the question, just 
briefly, is this idea of mentoring, training, and counseling. 
And it is so interesting as I think as we talk about this we 
all kind of have our own lexicon, I think, with regard to what 
those things mean.
    I think on the mentoring side, I would suggest that the 
one-to-one coaching really is the heart of what we would talk 
about as mentoring at Vistage.
    I certainly think the training that both Vistage chairs get 
in preparation to lead a group or with regard to the speakers 
that come not only to the Vistage meetings but to other such 
gatherings are really, really important.
    And then I would say on the counseling front what I think 
is very interesting about our model in this regard is that we 
do not provide consulting services or counseling in quite that 
way.
    It is a process that we have that we refer to really as 
issue processing that helps these CEOs who face difficult 
challenges to really come to their own conclusions by asking 
really good clarifying questions, by working with them directly 
so that they come to their own conclusions, and I think that is 
so they are not getting advice pushed on them. It is really 
coming to them.
    I think ultimately what is really beneficial is when you 
are part of a group like this and you are showing up to this 
group each and every month there is an accountability factor 
that is very much in play here so that as people get together 
with mutually agreed upon action steps, what is the path 
forward, what are we supposed to do, they are accountable to 
their group every month to say how is that working out for you, 
you know, how is that going?
    And it is a group that really keeps you on task and 
accountable. In many respects I think that is part of why 
Vistage has been successful. Our retention rates are just over 
80 percent and the average tenure of a Vistage member is about 
6 plus years.
    So, that is the quick overview of what Vistage is about 
anyway.
    Ms. Sanchez. Great. Thank you. Following up on this 
collaborative approach model that you describe and the value of 
mentoring, Julie, you had mentioned both training and 
mentoring, in this collaborative approach as well, being 
critical to the services that the WBCs provide.
    Can you describe in more detail, is there a formalized 
process for ensuring that those two are reconciled to the 
extent that their trainings are one hits versus this one-on-one 
counseling which develops the relationships over a period of 
time and what mechanisms that the WBCs employee in and of 
themselves to ensure quality control and ensure that there is a 
real good return on investment for taxpayers on this?
    Ms. Weeks. That is a good question, and one of the values 
of Women's Business Centers is that there is not a one-size 
fits all of cross all 110. Part of the unique characteristics 
of them is that they do different things in different regions.
    So that said, I do not know if we can say that there is one 
key way that they perform those services. I know that up until 
a few years ago, and maybe Holly you can help answer this 
question, there were formalized mentoring roundtables that OWBO 
and Women's Business Centers did in most if not all of the 
Women's Business Centers. That was back I do not know maybe 10 
years ago. It was probably before your time.
    And I do not think that officially exists anymore, and 
actually it would be a good idea perhaps to chat about 
revisiting that because there is not right now a mechanism to 
ensure, I do not want to say uniformity, because I think that 
goes against the grain of the local flavor that Women's 
Business Centers have.
    But, not to dodge your question, I want to answer it by 
pointing to a research study that I did or we did when I was at 
the National Women's Business Council.
    It was actually really interesting looking at mentoring for 
women business owners around the country and it found that 
there were three different ways that it seemed to go by size 
and growth of business.
    At the very beginning, mentoring was a one-to-several 
teacher and a small group of students I guess you could say, 
and that was those Win net mentoring roundtable things that 
were happening at Women's Business Centers at that time.
    Then, at the middle stage of growth of a woman-owned 
business, it seemed that the existence of mentoring was more 
mentor protege pairs. Then at the higher level, it was much 
more the TEC/Vistage/women presidents organization peer group 
mentoring.
    And this was an assessment of what is as opposed to perhaps 
the ideal of what should be. So, I think we could have a 
conversation about what should be. But that looked to be the 
range of what is going on in the women's business community in 
terms of mentoring.
    I hope that at least partially answers your question.
    Ms. Sanchez. Yes, that is absolutely right.
    Diane, do you have anything you would like to review?
    Ms. Dietz. I would just be curious especially from Clinton 
and from Scott, if you could talk about--we have already talked 
about some of the coordination you have in leveraging and 
university partnerships--so I would also be interested to hear 
if you have any best practices for the public-private 
partnerships that you have built up over the years or learned 
from somewhere else and how that propelled your programs and 
your centers forward.
    But before you can answer that, I would like to ask Holly 
what the agency is doing to encourage the collaborative 
approach that is so necessary, particularly today in this 
budgetary environment?
    Ms. Schick. Thanks, Diane. We have actually taken several 
steps to move the ball forward in that regard, and I think one 
of the things that we do is establish a national framework for 
these programs to operate, and that is just the basic of how we 
do business, and that helps us with the consistency of services 
which, I think, is fundamental to how they collaborate and work 
together.
    One of the things that we do is just in a formal way in the 
program announcements, those are the formal SBA vehicles that 
we put forward to say this is what the statute calls for you to 
do, this is what the agency and Administration see as a 
national economic development agenda for priority items.
    So, we put all of that into the program announcements that 
get provided to the resource partners. In those documents we 
have a very specific statement that says you all will 
collaborate, you all will play nice, you all will do all of 
these great things. So, that is our formal statement.
    From experience I know personally that if these programs 
were not doing the collaboration and the partnering that 
everybody wants them to do, they would not be successful.
    It is incumbent upon Clinton, the SBDC, WBC's and the SCORE 
chapters, they become part of that local fabric; and if they do 
not, it hurts them in terms of their reputation, their client 
draw in the community.
    So again, we make that formal statement that says you all 
will do that. I think we also have, and I will talk about the 
SBDC program, through the accreditation process that Tee and I 
think Clinton referred to which is a peer quality evaluation 
process.
    There are components in that review that talk about your 
relationship to your customers, to your stakeholders, and all 
of those things. And again, the centers would not succeed if 
those things were not in place.
    Our challenge at SBA is to provide the framework for what 
everyone should do consistently but also to be able to allow 
enough breathing room for them to get into those local markets 
and customize their services, because in every market, and I 
think Julie and Ken were talking about that, if there was not 
an international trade expert and one of WBCs, Ken's program or 
an SBDC might, indeed, have that, and that local network is 
really, really important so that again it is seamless to the 
customer as Daryl said.
    So, I think back to that accreditation process for SBDCs, 
that is really important because again they cannot do their job 
unless they are connected and hooked in.
    So, SBA wants to provide that framework but also give a 
balance and allow them the freedom to establish those 
relationships as need be. It is a balance, and so, we are 
looking for ways that we can help move the ball forward and 
certainly welcome any input and dialogue from folks that we can 
get.
    We also have research that shows through our impact 
studies, as well as other studies that the individual resource 
partners have done on their own, that speak very specifically 
to the niche markets that these programs in kind of a 
standalone fashion where their primary market is.
    And that research tells us that these programs really 
target the statutory mission of what they are supposed to be 
doing, and it also tells us that they implement that in an 
excellent way in their local marketplace and adjust accordingly 
depending upon the resource mix, because we do not have one of 
everyone in every market.
    Our challenge I think again as we move this ball forward is 
finding ways to facilitate, ways to encourage, ways to measure 
that perhaps we have not yet mastered, and it is tough to 
really measure.
    It is one of those things like you know it when you see it 
and when it is working it is really good. So, we are trying to 
get our arms around how do you really measure that? We do not 
want to layer on a whole other level of reporting kinds of 
things.
    We get in their narrative reports from the different 
centers. They talk about best practices in terms of 
collaboration and all of those things, and we try to add annual 
conferences and convenings of the group, try to profile some of 
those folks who figured out how to do it right, and so that we 
can put them up in front of other folks so that people do not 
have to reinvent the wheel all over again.
    Those are some of the things that we are trying to do, but 
again, finding that balance between how we incent and how we 
provide the framework but not yet be really oppressive in terms 
of the reporting and all of that.
    We are trying really hard to see where we can move next to 
keep it building.
    Ms. Dietz. Julie and then Leo.
    Ms. Weeks. Women's Business Centers at an individual level 
are extremely collaborative and we have asked in our surveys in 
the past, with whom do you collaborate and what do you do with 
them?
    And virtually all of them are working with SBDCs, working 
with SCORE. Other collaborative partners that are interesting 
at least in our world is model chapters and the Association of 
Business Women Owners [off microphone] have a relationship 
with.
    What I would say as active as it is at the local level 
there will be a couple of words, at the national level we are 
not talking as much as we ought to [off microphone]. I do not 
think it needs to be something mandated or whatever, but I 
would pledge that the three of us plus you and SBA get together 
and chitchat about what is going on in our worlds, what can we 
do more of, because I think the collaboration that is happening 
now is that we are at the ground level and we really ought to 
kind of do more talking, and I am sorry I forgot to push my 
talk button.
    Ms. Sanchez. Julie, I think that is an excellent idea and I 
know Chair Landrieu would be extremely interested in seeing 
that type of conversation take place and what progress results 
afterwards.
    Mr. Bottary. This whole issue of collaboration is so 
interesting as we are all talking about it, because I think we 
are really taking baby steps toward getting better at it, but 
we have a long way to go.
    We are not natural collaborators in many respects. We are 
brought up, we go to school and we are hiding the answers from 
the person next door to us sitting at the desk for fear because 
God knows it might help them do well.
    Yet, we go into companies, we are asked to work together; 
and even working together within the organizations can be a 
challenge. If you can imagine organizations having to work 
together in that way.
    The June issue of Harvard Business Review dedicated the 
entire issue to collaboration; and I figure if we were any good 
at it, they might not have necessarily done that. So, they felt 
it was obviously necessary to cover that ground.
    I will say that there are certainly a lot of organizations 
that have values statements or posters on the walls or things 
that appear on annual reports; but I will say that the people 
who started Vistage, so it has nothing to do with anyone 
involved with it today.
    But they have been enduring and, I think, are really 
critical to this notion of successful collaboration. And those 
values are trust, caring, challenge, and growth.
    That at the end of the day, you have got to trust one 
another. You have to be able to convince someone that you care 
about their success.
    And when you challenge them, if that challenge comes from a 
place of caring, people will accept that, and I think work with 
that and know that it comes from a good place.
    And then in the end if that can fuel growth which, of 
course, we hope builds trust and we continue that cycle, we 
have got something I think really powerful.
    So, to the extent that that is remotely helpful as we are 
sitting and thinking about how do we improve upon the way we 
collaborate, it is certainly a good start and it has worked 
very successfully for Vistage for a long time.
    Ms. Dietz. I want to recognize Clinton but I will say that 
the Chair, the Ranking Member and I have sat with Ami in many 
meetings and with Julie and with many of you, and we do talk 
about data, and we do talk about collaboration, and we strongly 
encourage you and will be speaking with GAO very shortly, 
strongly encouraging you to work together. They all work 
together and it is a tremendous impact for communities that 
desperately need tremendous job impact right now.
    So, Clinton, I'll turn it over to you and Tee.
    Mr. Tymes. Sure. First, I just want to say to Leo I was 
just on your Web site last week. We are looking at doing a 
peer-to-peer for technology-based businesses. I went to your 
Web site but we are going to talk afterwards.
    But I will say this in terms of collaboration, the Delaware 
SBTDC could not do its job without our resource partners. It 
would just be impossible.
    As a small state we all do the same types of things. We 
provide information. We do counseling. We provide the training, 
et cetera.
    And what we have been able to do in Delaware is, our target 
audiences are different, and I think that that is the key, that 
our target audiences are different.
    So, as example, we do a starting out in business program, 
and we go through all the regs and do the business plans, et 
cetera, but it is more of an assessment as well because what we 
are trying to do is determine at what stage of development that 
person is so that we can refer them to the agency that is best 
appropriate for their deeds at that particular point in time.
    So we work closely with our resource partners. We have done 
on the occasion some co-counseling, to be honest with you. And 
in Delaware, with the high priority on technology, most of our 
SCORE consultants have come from the Dupont Company and 
Hercules.
    So, we use them. I mean, these are the guys that have 
brought new innovative products to market. That expertise is 
tremendous so that is how we go about that leveraging.
    There was a couple of other things I just want to mention. 
Diane, you had mentioned private sector collaborations, and I 
will just mention a couple in terms of what we have done in 
Delaware with the private sector.
    One is a procurement conference as an example of where we 
get a lot of private sector companies to sponsor a procurement 
conference. Another is a collaboration that we do with 
McDonald's and the Marriott and the university, and it is an 
entrepreneurial summit and this is targeted to historically 
Black university and college students who are in the hotel and 
restaurant management majors. They are in terms of 
entrepreneurialship franchising with Marriott and McDonald's, 
et cetera. Another is with J.P. Morgan Chase chasing a dream. 
We go in and work with kids. This is a summer camp on 
entrepreneurship. So, these are some of the things in terms of 
the public and private partnership.
    Lastly, I had a note here we were talking a little bit 
earlier about quality control there. From the SBDCs' 
perspective, quality is paramount. Holly and Tee have mentioned 
the accreditation process. The whole point of the accreditation 
process is to go into a program and determine if, in fact, that 
SBDC is meeting the needs of its local community. And if you 
are doing so, how are you doing it. Number two.
    And number three, is it working; what are your measurements 
and how are you measuring quality? From an oversight 
perspective, the SBA through project managers call our clients.
    The Delaware SBDC we send out customer service 
questionnaires a few months after we have seen a client. We 
also do an annual survey of our clients through Chrisman, the 
ASBDC economic impact study there. So quality is a critical 
factor, and we do measure it through a number of mechanisms to 
make sure that we are providing a quality service and at the 
same time meeting those needs.
    Ms. Sanchez. Great. Thank you.
    With regards to accreditation, is it mandatory for every 
SBDC center to be accredited? I do not know if we have this 
information, but if you do, can you tell me what the ratio is 
of those centers that are accredited through the process versus 
those that are not accredited and/or do not make it through the 
accreditation process?
    Mr. Rowe. Every SBDC network is accredited. You have to be. 
If you are not accredited--what essentially happens is, well, 
the team goes in the whole process; but if the network fails 
the accreditation, that report goes to SBA and then basically, 
for lack of a better phrase, SBA has the option of either 
saying you must take the following steps to remedy as 
recommended by the accreditation committee or we will just pull 
your ticket, and at which point they put these services of the 
network up and do an RFP and say, will somebody, can some other 
institution step in.
    Now, and I e-mailed you and Diane earlier without wanting 
to inundate you with like a wheelbarrow full of paper because 
accreditation is a very serious and time-consuming process, and 
we are doing 16 reviews a year so that every SBDC is getting 
accredited every four years.
    Now, that sounds like not very often. But in the interim, 
of course, all the processes that have been put in place in the 
accreditation process are then being reviewed annually by SBA 
when, as Clint said, the POs come in and they do the reviews 
and they are going through all of the files that a counselor 
has, they are picking out random clients, and they are 
discussing with those clients the quality of the services.
    And that is on top of the individual customer service 
surveys that are being sent out. And just for instance, I know 
in Louisiana when Marilyn sends it out and it is 60 days down 
the road, and she wants the responses from the client, and then 
if she is not getting the response she wants, somebody's head 
is rolling.
    And on top of that, there is a professional development 
requirement in every SBDC for all the counselors on top of your 
counseling hours and your client impact metrics.
    It is a huge process and a very serious one as to what the 
key performance indicators are for our business advisors and 
counselors, because it all revolves around making sure that the 
clients we are working with in the community, they are getting 
the assistance they need, not the assistance we want to give 
them, the assistance they need, which is why on the other hand 
we have 63 networks and probably 63 different customer impact 
surveys.
    But at the end of the day, no matter how you slice it, and 
I sent you all just a sample accreditation report. I can give 
you all 63 if you really want to wade through it all.
    But it goes through in painstaking detail what you have, 
what you do not have, how you have met your strategic planning 
and your goals, how you failed, and whether you have met the 
conditions or not.
    It is a peer review process, but it is a pretty tough one. 
People are fairly objective about it, to say the least.
    Ms. Sanchez. Thank you. Julie and then Clinton.
    Ms. Weeks. I just want to say that while the Women's 
Business Centers are not formally accredited, there is an 
assessment process that has been going on for the last couple 
of years whereby, and Holly can chime in with the exact number, 
but I think almost all of the Women's Business Centers now have 
been visited by some of the same accreditors that the SBDC has 
used, and there is a quality control process that is going on 
and that will continue to evolve to make sure that Women's 
Business Center people are doing things in the correct way.
    And certainly all the customer satisfaction surveys and 
whatnot that have been done by Concentrance that are evaluating 
the three ED programs on counseling which is our only sort of 
area of overlap of all three of us, the customers are equally 
satisfied with our different methodologies.
    And one little thing I would add on that, it can come maybe 
later with the recommendations for how we might be able to 
change and improve things, is that the Concentrance study is 
only looking at counseling. The Women's Business Centers, for 
example, do so much more that we are not getting evaluated on; 
and that would be a really useful thing to improve.
    Mr. Tymes. I just wanted to mention that, one, I have 
served on the accreditation committee of our national 
association. It is a grueling process.
    And the standards by which we have established, which is, I 
do believe, it is about six standards at this particular point 
in time, are all patterned after the Malcolm Baldrige standards 
for quality. So, that is the basis of our accreditation process 
itself.
    Having served on the committee, I will say this that we 
have had a number, will have a number, a couple of programs 
where, say, accreditation has been referred because certain 
standards have not been met.
    However, before you can pull a program, there is a process 
by which a plan is developed that is monitored by the 
accreditation team as well as the SBA so that we can make sure 
that the program is brought up to standards which again the 
whole accreditation process is about establishing standards so 
that all SBDCs are operating on say a standard level at 
minimum, if you will.
    Ms. Sanchez. Great. Thank you.
    Mr. Williams and then Holly and then I think Diane and I 
both have questions for Mr. Shear about this concept of 
collaboration and quantifying that.
    Mr. Williams. Yes. I think that what we are talking about 
here is so important in terms of collaboration not just within 
the SBA organizations but between SBA organizations and the 
ones who are out in the philanthropic community and in the for-
profit community.
    I know I have talked to a few of you already, and I promise 
we will reconnect. I have talked to Julie and said we will 
reconnect.
    I would like to offer to hold something in Kansas City at 
the Kauffman Foundation for all of us and maybe some more 
people outside of this to come to Kansas City and look at the 
idea of standardization of how we measure things, the idea of 
how do we have a linear process between our organizations back 
to your point, how we can effectively use government resources 
and philanthropic resources and private sector resources to 
really have this process of really leveraging what we do in 
order to make sure we are providing the best services for the 
clients.
    So, if you have a sheet of contacts, I would love to have 
that so we can maybe offer that to everybody here.
    Ms. Sanchez. I think that is a great idea. That is 
fantastic. I love it. We are not even done with this roundtable 
and we are already working on the next one.
    Mr. Williams. Right.
    Ms. Sanchez. That is awesome.
    Holly.
    Ms. Schick. Just two quick points. One follow-up to Julie's 
comment about the impact study in counseling. We have just 
undertaken a pilot impact survey for training specifically for 
the Women's Business Center because we understand that a large 
percentage of the deliverable on the outcomes are realized from 
the training impact and the training activity that we do.
    So, we are trying to get started with that to really 
evaluate what training contributions will mean to customers' 
ultimate impact.
    And second, if I may, I would like to call on my colleague 
Ken Yancey who is quiet in this conversation about quality. 
SCORE has implemented a very rigorous quality improvement 
process. And then when you are managing a very large national 
network of volunteers, you can imagine how difficult that is.
    So, if I may turn it over to my colleague Mr. Yancey to 
speak to that I think we should not end the conversation 
without that.
    Ms. Sanchez. Actually, I think that is great. We 
collectively as a matter of form refer to resource partners as 
one big group. I think it is really important to note that one 
size does not necessarily fit all. It usually does not fit all.
    There are different programs to meet different needs and 
there are different ways of going about it. I think, as Diane 
mentioned, utilizing private sector resources particularly 
individuals with particularized knowledge and skill set to 
assist business owners is incredibly important and the 
quintessential utilization of leveraging private sector.
    I mean, do you fire volunteers?
    Mr. Yancey. Yes. Yes, we do.
    Ms. Sanchez. But I like Holly's point about how when you 
are using that specialized expertise and free in-kind 
contributions in that way, how do you assure that you are 
providing quality services?
    Mr. Yancey. Please excuse my silence. We do a lot of the 
same things that are being done by the other organizations. We 
call our process chapter minimum standards. The chapter is 
reviewed against minimum standards once every two years.
    It emanated years ago from a question that we used to get 
about whether or not a chapter was a unit member in good 
standing within the SCORE association. We felt that we needed a 
way to measure that, and so now we do.
    We recognize chapter performance levels on an annual basis. 
We have three tiers based on criteria that has been set 
collectively within our organization. From a quality standpoint 
in terms of the specific volunteer, we actually follow-up with 
every client using a net promoter SCORE process.
    Most of you are familiar with net promoter scores. I think 
the book was called The Ultimate Question. And the question is, 
on a scale of zero to ten, how likely are you to refer a 
friend, a colleague, a family member to this service?
    I have a net promoter score on every volunteer that 
counsels. So, we can look out across the organization and say, 
well, this individual has an 8.6 but this one has a 2.5 which 
leads us to ask a question, not to say that one is doing a 
better job than the other. Often it is driven by the 
expectation of the client.
    I am sure it does not happen in your programs but 
occasionally a client comes to us expecting to walk out of our 
office with a grant; and when we do not provide that grant, we 
typically do not meet their expectations; and when that 
happens, the net promoter score is low.
    But it also tells us that we have got to do a better job on 
the front end of having people that utilize our service 
understand what they should expect. And so, while it is a bit 
humorous, it is also something that we take seriously and we 
know that we need to work on.
    The other thing that we have done recently related to 
quality, what we found as we have begun to measure client 
satisfaction and more specifically client engagement, in a 
partnership we had with Gallup we found that over time SCORE 
services have become more transactional than relationship 
oriented.
    That is concerning to us, and so we have entered into a 
partnership with Gallup and the Deluxe Corporation Foundation 
developed a proprietary counseling methodology that is not 
intended to tell our volunteers what they need to know about 
business processes.
    It is training our volunteers on a counseling process that 
is five steps that is intended to result in longer term 
relationships, and part of that step is a question that they 
need to ask that is collaborative in nature.
    Is there another organization in the community that can 
better serve this client's needs? If it is technology transfer 
related and it is not with Clinton, then we are not doing the 
client justice.
    If they are a veteran and there is a veteran service center 
in the area that is better able to serve, we have to get that 
client there. That does not mean we do not follow-up after the 
fact, but we need to get them there, and then we will call 
them.
    What did you find out? What are you getting? Is it working 
for you? How can we help? What are your next steps? And the 
next step, maybe we send them to Julie or we send them 
somewhere else.
    But I think that our role as an organization is certainly 
to help create jobs and create businesses but we do not have to 
do that in a vacuum and do it only with our volunteers.
    And so our new plan and strategy is to really be more 
collaborative and that is something that we are rolling out. I 
think that I agree with Leo's comment, if we were doing a good 
job of this, the Harvard Business Review would not have devoted 
June to a very good discussion of collaboration so quality is 
critical to us.
    We are doing a lot of new things and a lot of different 
things. From a collaborative standpoint, we think it is 
important enough that we are going to begin measuring referral 
relationships, not only who we have them with and where they 
are but what are the results and how can we improve those.
    Those are with chambers and with SBDCs and Women's Business 
Centers and with Kauffman and anybody else. With Leo we have a 
really exciting conversation ongoing there.
    So, thank you for prompting me to suggest this.
    Ms. Sanchez. Great. Thank you.
    Julie and then we will move on to Mr. Shear.
    Ms. Weeks. Just real quickly.
    Ken, you have done a really good job over the past few 
years diversifying the range of counselors. There has been a 
legacy from like 10 or more years ago of SCORE being the 
Service Corps of Retired Executives, meaning older white 
gentlemen. And a lot of the female clients who would come in, 
it would get sort of what are you doing wanting to start a 
business, young lady, kind of responses. That legacy still, 
maybe there is a little teeny bit of it left.
    So, I think that what you are doing now with the more 
relationship oriented is also going to better serve the women 
who are coming because women are much more relational than 
transaction. They do not really want to ask a question and get 
an answer and go their merry way. They really want to talk 
about it a little more.
    So, that will serve you, plus the diversification of the 
SCORE counselors. There are far more women and far more people 
who are still business owners, not retired, so kudos and I 
think that bodes well for ramping up of our collaboration.
    Ms. Sanchez. Great. Thank you.
    So, I think a take away here is measuring, a successful 
collaboration is often times difficult. The more interwoven our 
resource members become in providing that seamless service that 
Mr. Williams discussed, the more difficult it is to attribute 
the success to any one particular entity or service.
    So, I know this is something, these are ongoing 
conversations that we have had, and Senator Landrieu has 
discussed this many times about is it possible and to the 
extent that it is impossible, why or why not? Why can we not 
measure this effective collaboration? Why is it so difficult?
    Mr. Shear, I do not know if you have things to add about 
quality control and how GAO is reviewing resource partners and 
having these conversations about collaboration and 
effectiveness.
    Mr. Shear. Okay. Thanks. I will say something to tease 
myself because you know me well enough that I could probably go 
on for a day on this but I will try to be succinct.
    Let me just start with a comment Leo made. A lot of times 
people do not want to collaborate or, to use Holly's 
expression, play nice with each other.
    We see different personalities express that. We see that in 
terms of our collaboration within SBA and among resource 
partners. We see that in looking at SBA with other agencies.
    So, we see that, and a lot of times we see certain things 
happen sporadically because it is just that you might have some 
people out in the field that I will call out in the trenches 
that do want to collaborate because they see it as part of 
their success, and you have some people that just do not like 
to do it.
    So, given that, we do not think one-size-fits-all, and I 
would like to bring up that the clienteles served tend to be 
different. That is one of the reasons why collaboration which 
is a requirement or coordination is a requirement is because 
you do not want the different resource partners to be competing 
with each other. You want it to reach--there is a lot of meat 
out there, and you want to reach the intended audience.
    So, let me step back from measuring collaboration and just 
say there are certain things that we look for, and let me go 
back to even our Women's Business Center report which is now a 
few years ago.
    We made three recommendations in the report, and a lot of 
it was creating more of the structure to the program and how it 
was operated, make it clear what the district office technical 
representatives were supposed to do and things like that, 
creating a better structure.
    Out of our three recommendations, two of them, the one that 
did not deal with coordination, were implemented very quickly, 
I would say relatively quickly. I think it was within a year, 
which is quick in our standards.
    The one on coordination has not been, and it is not like we 
want everybody to be doing the same thing. Quite the contrary. 
And we do not want SBA to be dictating what everybody is doing.
    But a little bit is to step back and think strategically as 
far as what are the roles of the different resource partners in 
different areas of the country.
    In one of the things that you have to build upon, and we 
knew and I knew in signing the report, we saw lots of very good 
collaborative practices out there, out in the field in a lot of 
different places.
    We are looking for a certain structure. We are still 
looking for a certain structure, whether it is through 
providing guidance in terms of providing some sense in 
strategic planning, and really, what this all takes is 
leadership.
    So, I have been very glad recently Holly and others have 
been reaching out to us and trying to work with us, what types 
of ideas do you have in terms of working constructively with 
each other, and it looks like there is that commitment now to 
move forward on this front.
    But what we are looking for, both within SBA among resource 
partners and in terms of SBA administering these grant 
programs, is really creating a better structure for it.
    Within that, it could involve protocols. We do not like to 
micro manage how you get there. There could be certain output 
measures like how many times do you observe referrals from one 
resource partner to another, but it does not have to be that 
exact a number.
    Many times it is creating a structure. It is creating 
certain protocols for how things can occur. It is creating 
guidance based on best practices that we already saw a track 
record of certain best practices out there, and we also saw 
instances where it looked like resource partners in some 
places, not to be named, were not working so nicely with each 
other.
    So, a lot of times it is just being a little bit more 
specific about what are we looking for, strategically what are 
we trying to achieve overall.
    So, I realize that is a very long answer so thanks for 
bearing with me. But that is basically what we are looking for.
    Ms. Sanchez. Great. Thank you.
    Diane.
    Ms. Dietz. I would like to build on that for those of you 
who do not know Bill. For Bill, I always say, this is his 
second home. He is a fixture here in the Committee.
    Ms. Sanchez. We have a desk reserved for him in the back.
    [Laughter.]
    Ms. Dietz. And we certainly look to him for insight because 
he has sort of the eagle-eye view of what you all are doing and 
how you interconnect. I think I speak for Ami when I say that 
as Small Business Committee staff, I can report that one of the 
greatest challenges we confront is determining the efficacy and 
job creating potential of the individual ED programs and, as 
Bill referred to the 2007 report, there is also a report that 
came out this May on duplication, inefficiencies, waste.
    One of the outcries from GAO is typically a lack of data. 
We need data. If we do not have data, we cannot tell you 
whether or not this is a duplicative program or whether or not 
this is an effective program.
    And when I reach out to Julie Weeks who knows women's 
entrepreneurial data like the back of her hand, which is why I 
am so thrilled she could be here today, she says I have that 
and I just got that and I can show you more.
    And when I reach out to Tee, I hear I think I know the 
number off of the top of my head but I can get it for you and 
here you go.
    And Ken can bring numbers to a meeting but I feel like at 
the end of the day somehow that data does not get back to the 
Committee unless I go directly to our ED partners when I should 
be getting it from the agency.
    So, I guess this question is for Holly. We hear that MOUs 
are ineffective despite their very nature in creating 
collaboration, and we hear that the data is there but somehow 
we are not able to access it.
    It is hard for us to measure these programs in terms of how 
effective they are when we do not feel like we are getting 
enough data. And my counterpart, Meredith West, who works on 
these issues very closely with Ami is always saying data, data, 
data. I think the first thing she taught me. We need to see 
more timely data throughout the collection process rather than 
months and years later.
    What can these programs, everyone is in the room, do for 
the SBA to help you communicate and share that data so we can 
get it back to the GAO and they can make more educated 
decisions.
    And Bill, if you want to follow up on Holly's answer.
    Ms. Schick. Thanks, Diane.
    First, I would like to talk about the difference in data. 
SBA collects information from the resource partners through 
what we call our EDMIS system.
    EDMIS was built as a data capture system, not necessarily 
built for a client management or an analytic tool, and so when 
we get requests for data, although it is not maybe as efficient 
as we would like it to be at the current time, that data is 
always available upon request to us through our OCI's office.
    So, the data is there, based upon all the fields that we 
collect. The analytics, not as robust as we would like it to 
be, and we have a plan in place right now where we are moving 
forward with requirements for a new and more robust version of 
EDMIS so that we can, once we get the good data in, we can get 
it out in a more expeditious fashion and do more analytics and 
more data mining.
    We collect impact data through our third-party contractor 
Concentrance, and we come up with impact numbers and we use 
methodologies that, you know, are approved by OMB.
    Our resource partners, they also conduct their own impact 
studies and their own analyses of what is being produced out in 
the network. We do always hear that in cases, well, it does not 
always reconcile.
    Well, the fact is perhaps it should not because we might be 
comparing apples to oranges. In each one of those impact 
methodologies there are different parameters for the surveys, 
and it would not match necessarily what we do.
    So, you know, on the impact data, I think collectively we 
all get a big picture but we do not always match. I think that 
matching perhaps it is not a good goal in terms of that 
particular data.
    Again, back to the EDMIS, any of the data that we collect 
from the resource partners comes into our systems and is 
uploaded and we collect it on standard forms, that data is 
available. It just takes a minute for us to make requests and 
get the parameters correct and then have the folks running the 
reports.
    Ms. Dietz. Well, I will say to a person that is speaking 
for the Ranking Member of the Committee, oftentimes we make 
requests and it is very difficult to get data; and when we work 
with resource partners, they often tell us it is very difficult 
to get data from the agency.
    So, if you could take that back as a constructive request--
--
    Ms. Schick. Sure.
    Ms. Dietz [continuing]. That we would love to have more 
timely, actionable and available data, I think that would make 
our job easier.
    I will turn it over to Bill. Do you have thoughts, Bill?
    Mr. Shear. Yes. And many times we talk about data where we 
are really talking about documentation that might not even be 
numbers; and to take this back again, something that you run 
into a lot when you are in an auditing agency, including at 
SBA, is the idea that everybody says we have lots of data on a 
lot of things but a lot of times we are saying, as in here, let 
us step back and say strategically what are you trying to 
achieve in terms of coordination among resource partners.
    In here, our focus is we obviously go out and look at the 
programs and we interact with the resource partners, but our 
focus is on how SBA runs those grants programs.
    And so, in that case we are often a lot of times in our 
interactions with the agency in a number of areas, we are 
saying these are the types of things we are looking for, and 
those things are often documented processes.
    And many times we have found that when we interact on those 
documented processes, it brings more definition to what the 
agency could do to improve those processes, and that is what we 
are looking for here.
    Just as in our conference call yesterday, I said one of the 
best examples of us working in that manner dealt with the SBA's 
disaster loan program in terms of what we were looking for and 
how do you set policies and procedures, where you are stepping 
back and the first step is how do you think strategically of 
what you are trying to achieve.
    And this might seem very hypothetical, but there is a way 
to bring it to life. As I say, one of the strong points here, 
we find the Concentrance studies quite useful. You always have 
a problem when you go to those served by a program with 
response rates.
    But even given that, they are quite useful in terms of 
seeing how clients view the services, and that puts these 
programs at some advantage to some other economic development 
programs.
    And again, we saw some very good coordination going on, 
some best practices, out there. It is a matter of creating more 
of a structure and more, whether it is protocols or whatever.
    Once you have that in place, coming up with metrics is 
easier, but it is a matter that there are all kinds of data out 
there. You want to answer the question what does the data 
inform in terms of how we can run these programs better.
    There are challenges of having three separate programs 
versus having consolidated programs. But if those programs were 
consolidated, there would be another set of challenges. 
Regardless, we are looking for how do you think strategically 
and put the pieces together.
    Ms. Sanchez. Thank you, Bill.
    Julie.
    Ms. Weeks. Just briefly. One of the complaints, I guess you 
could say, or suggestions from Women's Business Centers is the 
fact that they perceive that when they are quarterly inputting 
data into EDMIS and their annual survey, it goes into a black 
hole and they never see anything out of it.
    In this past year, and Holly and I have talked about this, 
it is like not news, but in this past year when we were getting 
a lot more pointed questions about tell us your impact, and we 
would like to know all the information that we are inputting 
into the system like we do not get it out, back out.
    And also the survey, and I mentioned it briefly before that 
Concentrance is only focused on counseling which is only a part 
of what the Women's Business Centers do.
    Another suggestion perhaps for us, and Holly and I also 
talked about this, is up until maybe, I do not know, six years 
ago or so, the Office of Women's Business Ownership had an 
annual report. It was like here is our metrics, here is how 
many clients were counseled, trained, whatever; and there was 
an actual physical annual report from OWBO about the Women's 
Business Center program.
    Perhaps the ED office could do one not only for OWBO but 
proactively publish something that is going to answer 95 
percent of the questions that the Hill and everybody else would 
have anyway about these three ED programs. I think that would 
be extraordinarily useful.
    Mr. Yancey. So, I go back to the original development of ED 
programs, excuse me, the EDMIS system, Entrepreneurial 
Management Development Information System, and that was a 
remarkable improvement at the time over what we had.
    But the desires of the Congress and the Committee and of 
our stakeholders and the GAO and others have changed 
significantly since we developed that system.
    And so, my suggestion is that it is probably time, once 
again, for us to take from Mr. Williams' suggestion and have 
programs sit down one more time and let us understand what the 
Committee's needs are on a monthly, quarterly, and annual 
basis, understand what the SBA's needs are, and then develop 
something that makes sense, recognizing in that process that 
these three programs are very different in the way that they 
are developed, in the way that they are funded, in the way that 
money is distributed, and in the way that they are managed.
    You know, ASBDC, the Women's Business Centers are trade 
associations basically that have a different relationship with 
our chapters and money flows differently than it does there.
    In data capture and analysis and how we use it for 
reporting metrics from a management perspective as well as to 
provide you impact data are very different between the 
organizations.
    A one-size-fits-all is not necessarily going to work. 
However, if, within the system that is developed, we all agree 
that there is a core set of data elements that you want and on 
what basis you want them, it should not be difficult since we 
are all gathering client data from a single form to be able to 
provide you what you want when you want it.
    From an economic impact matter, that is different. SBDC 
does one. We do one. Ours does not only provide economic 
impact, but it provides a tremendous amount of information on 
client engagement and what drives client engagement. We are 
making management decisions from a program perspective based on 
that data to help us do a better job with our clients.
    I think that whatever we do, if it does not worldwide in a 
timely way jobs created, businesses formed, taxes paid, all of 
those things that are important, then we have failed.
    And my challenge, as Holly and I have discussed many times, 
is that while SBA does do an impact survey, we do not have the 
information. It is over a year before we have the information.
    One of the reasons we are doing our own is that I have the 
data within 90 days of the close of the fiscal year, and we 
need that in order to tell our stakeholders, Congress and 
others that we have been successful and how that success 
manifests itself, what it looks like.
    I think that it is time, once again, and Holly I am sure 
this is on your list although we have not talked about it, for 
us to sit down and understand what the needs, what everybody's 
needs are, create a baseline and then allow the programs to 
develop something that delivers on that baseline as well as 
whatever else they need to effectively manage the program.
    Ms. Dietz. Thank you, Ken.
    I know we are getting close on time, but I do have a couple 
of questions especially for Scott. I have not forgotten about 
you.
    I did want to ask one question and I sort of want to pull 
Julie and Bill into this and I think it is a good segue for 
wrapping up the roundtable.
    I have received a couple of calls from a Women's Business 
Center in Jacksonville, Florida, and literally they just called 
so I know what they are doing.
    We just wanted to let you know that we are collaborating 
with these people and we are happy to share our stories and our 
best practices, and I have to say, as busy as I can be some 
days, I am happy to get those calls. I really am. And they were 
fine enough to----
    Ms. Weeks. Would you like 109 more?
    Ms. Dietz. No comment. But I will say there in the 
northeast region, Jacksonville, Florida, and there is a 
partnership among ED resources and providers and they are 
collaborating to ensure an illumination of waste and 
duplication.
    And Pat Blanchard, I do not know if you know Pat, is the 
Director and she says for many years over 20 service providers 
have worked hand-in-hand meeting regularly, sharing and 
promoting each other's programs and services and then focusing 
on where there are gaps for existing small business owners. She 
said, ``We are a model for collaborating rather than 
competing.''
    I wondered if you had thoughts about if this is natural to 
Women's Business Centers, if you think they are a model, and 
Bill, if this is what the GAO has been really advocating for in 
their reports in the last four years?
    Ms. Weeks. I would say, yes, that is, the majority of 
Women's Business Centers do that. In fact, almost three 
quarters of Women's Business Centers are, by their nature, they 
are embedded already in the local economic development 
organization or maybe even in SBDC.
    They are not a standalone organization in the first place. 
So, they are a program of a larger economic development group 
which lends itself, of course, to all the collaboration and 
research that we have asked of Women's Business Centers, 
virtually all of them, 99 percent of them, are actively 
collaborating.
    Their number one partner is SBDCs, also SCORE, local 
economic development groups, universities which may or may not 
be part of SBDCs, and they are doing a wide variety of things.
    Perhaps Jacksonville is documenting it in more detail than 
some of the others do. But again, in surveys that we have asked 
in the past they are, of course, referring, that is the number 
one thing but they are also sharing trainers and educators.
    They sit on the boards of other organizations. Other 
organizations sit on their boards. They do events together. 
This is a natural part of what they do.
    And what I said earlier is I think it is happening out 
here. It is not happening as much up here. I think we need to 
do more of it up here because again that coordination then can 
swoop in the other one or two percent who are not doing that 
kind of collaboration and it can also bubble up and share some 
of those best practices.
    Mr. Shear. In discussion we hear a lot about collaboration, 
and with Women's Business Centers and the other resource 
partners, we observed it when we did the audit work a few years 
ago.
    And again, looking at SBA, there is one point that I really 
want to make here about sharing data and documentation. For 
example, you said, well, we sent out formal notices, we do a 
number of things to try to create that structure to bring about 
coordination of services and things of that nature.
    Do not be shy about sending it to us. One of the most 
difficult things that I find doing, if I am at this Committee 
or anything else, of saying an agency has not given us 
documented evidence.
    We are auditors, documented evidence demonstrating that 
these things are really working or giving us enough detail. And 
many times our role in serving the Congress is like it is not 
just what is in our reports. It is the idea that we can, to 
some degree, kind of synthesize certain information that comes 
from agencies and from others.
    So, it seems like there are a lot of good things going on 
out there. We are looking for a little bit more of a structure 
and a documentation to bring that about.
    Ms. Dietz. Thank you, and I will turn it back over to Ami.
    Ms. Sanchez. Great. Thank you.
    I know we are approaching the noon hour, and I am sure 
everyone is hungry. I know I am.
    I would like to actually just close with a question. We 
have had a lot of discussion here, really helpful and 
informative discussion here I think about what SBA, what 
resource partners, what other entities can do to kind of make 
sure that these programs are effective.
    But there is a role for Congress here, and so I would like 
to ask each and every one of you if you could give in true 
Chair Landrieu style your top five recommendations, your three 
to five recommendations for what Congress can do to create, 
support, strengthen entrepreneurs as well as the programs that 
serve them.
    And for Leo, if I could ask if you could in your answer 
give some recommendations for what Congress can do to help 
increase private sector involvement and help resource partners 
to leverage that private sector support.
    Who wants to go first, anyone?
    Mr. Snair. I will go.
    Ms. Sanchez. You are a brave soul. Thank you.
    Mr. Snair. It does not directly apply to this Committee, 
but I really think it needs to be stated.
    I started helping people start their own businesses after 
being a businessman myself for some years, again about a year 
and a half ago. And I really find it disheartening when I see 
really, really savvy business people who either (a) are 
unwilling to take the plunge or (b) have taken the plunge and 
are unwilling to expand their business because of the cost of 
health care.
    And I am a registered Republican. I have been my whole 
life. I consider myself a pro-business Republican. But I will 
say it right now socialized medicine is the way to go. If 
somebody does not have to worry about the cost of health care 
for himself or his employees, he is willing to take that 
business in a million different exciting directions, and I 
would argue that socialized medicine is pro-business. Thank 
you.
    Ms. Sanchez. Great. Thank you.
    Tee.
    Mr. Rowe. I am not as brave as Scott. So, I am going to 
talk about other stuff.
    What Bill had brought up and the theme of collaboration I 
think is probably from a small business, entrepreneurial 
development point of view the 800-pound gorilla in the room 
whether it is capital access or international trade or rural 
development or federal procurement--let us pick some quick easy 
topics, right--the lack of coordination and collaboration 
because you have to deal with what we like to euphemistically 
call the alphabet soup, whether it is international trade, and 
the SBDC has an international trade center and we are working 
with the USEAC, but then you have to go to Commerce and the 
Census guys for the trade regulations and over here at EX-IM or 
maybe asked me at SBA because it depends on the package, et 
cetera.
    That confusion and lack of coordination makes our jobs that 
much harder, because we are trying to guide a small business 
owner. And I hope they are not sensing the frustration that we 
have because when you are trying to assist someone, obviously 
you want them to trust you and feel that they are confident in 
your skill set and that is why we work so hard on professional 
development at SBDCs.
    At the other end of the scale, it is, well, okay, go here 
but if you are doing this go there. And it makes it look like 
either we do not know what the heck we are talking about or the 
Federal Government end of it is so dysfunctional that it 
discourages people.
    And honestly, having been in your shoes, I do not know 
exactly how to go down this road. I do not know how you get the 
FDIC and the Treasury and the Office of the Comptroller and SBA 
and everybody all into one room to sit and think and talk about 
what are we really doing, and ICBA and ABA, what are we really 
doing about capital access for small business.
    If you write that into a reauthorization bill, I know you 
will end up with referrals to six other Committees and it will 
die under its own weight.
    But if there is a way we can start to identify and 
coordinate, and maybe it has to be in a bullet fashion, just 
what we did in the Jobs Act.
    And there is the great international trade effort in there, 
and the Office of International Trade at SBA will be working 
with several agencies to that TPCC, and SBA and ASBDC have 
already worked together and with the Women's Business Centers 
to set up the certification so we are already rolling on that. 
So, we will have our folks trained as international trade 
counselors.
    But then to go the step further and start to push the 
coordination which we already do, we work with census so that 
we help them run their road shows city by city so that small 
businesses can get trade coordination and regulation training. 
And I am still confused over who is doing what over there but 
thankfully they know. But going down those roads.
    In the procurement arena, we work so hard with the PTACs 
and many of the PTACs are actually part of SBDCs. We need to 
work harder to reach out to Scott and the SBDCs that are also 
VBOCs to make sure that that procurement end of things is being 
fully coordinated so that the opportunities are not getting 
missed.
    I guess it is that larger, it is thinking thematically and 
then building the collaboration from there, maybe if we can 
work on that for those areas. I know it is hard when you have 
got a big government with 15 agencies.
    Ms. Sanchez. Thank you, Tee.
    Mr. Williams and then Holly.
    Mr. Williams. Yes. There are two areas that you missed 
narrowly. Support for entrepreneurs and then the services that 
support those entrepreneurs. I think both of those are near and 
dear to you UEP's mission and spirit, and along with the 
Kauffman Foundation as well.
    So, I am going to say in terms of supporting the 
entrepreneurs and support we can give for encouraging 
entrepreneurs to create and start businesses. If you look on 
our Web site, the Kauffman Web site, there is a start up at 
2011 that we just announced on Tuesday that talks about, I 
think, it is 10 different ways about how policies and the 
spirit of entrepreneurship can be encouraged in our country. 
So, as opposed to going over all of those now, just take a look 
at those.
    But I would like to talk about the service part and what 
Congress can do in terms of encouraging and being more 
effective in the service that we offer entrepreneurs.
    And one is if they really have specific economic goals 
attached to the programs, I mean what are we trying to 
accomplish, what needles are we trying to move, what pieces of 
the entrepreneurial ecosystem are we not satisfied with, what 
is the baseline, and what are we trying to move those two 
across at any kind of point in time.
    I think then it is easier when you ask for data what the 
data is trying to tell you and what you are actually looking 
for. And so, I think that would be one thing.
    I think clarify the entrepreneurial process as for people 
who are using these services. So, when you have five million 
people who are looking to these programs and say what can I do, 
I mean, what is the process for, let us say, someone who is 
trying to do international trade or trying to do a start up or 
trying to do different areas of entrepreneurship.
    There can be kind of a typology created to say if you are 
doing this, here is the development plan of services that the 
government offers that can move you from point A to point B.
    And I think a lot of times people are confused where to go, 
what to do depending on what they are trying to accomplish. 
Somebody who is in the restaurant business is somebody totally 
separate from somebody who has a new innovation that they are 
trying to license or something like that.
    So, there has to be away for one to figure out what it is 
that we are trying to do in terms, from the government's 
standpoint, of the economic goals; and the other side is people 
who are trying to use those services need to understand what 
the process is to get to where they are trying to go.
    I think those two things will go a long way.
    Ms. Sanchez. Great. Thank you.
    Holly and then Julie and then Leo.
    Ms. Schick. First, I would like to state that we look 
forward to working with GAO and exploring how we move the ball 
forward on this topic, and the thing that Ms. Julie said 
earlier we all built upon how we at the Federal level and the 
national level, how we communicate with this. We set the tone, 
we set a standard. And having said that, the terms of the 
dialog [off microphone] and I think that is where that whole 
issue of collaboration needs to start.
    We had some successes. I was doing some research before I 
came over and back in 2009, the Committee received 
correspondence that talked about a group called INEAQ. I do not 
know if you recall it, it is called the Interagency Network of 
Enterprise Assistance for Providers. And it is a team of career 
managers from the Department of Commerce, the Department of 
Labor, and EPA. And this core group started meeting three or 
four years ago to just try to identify who are all the players 
in the Federal landscape that touch on the small business owner 
constituency.
    The group has grown from core membership of about four to 
five agencies to now it has over 19 participants. They meet on 
a monthly basis, every other month, and talk about what their 
particular program or agency is doing for entrepreneurship.
    And I think that has become a good basis for us in 
establishing contacts and in seeking input and ideas about how 
to handle this and doing what you are doing, why are we doing 
what we are doing.
    And I think that that would be a good platform, if you 
will, to work with GAO and see how that is working to see if we 
cannot continue to build on that.
    The other projects, I think, that SBA has reached out on in 
trying to do Federal cooperation is one through our cluster 
initiatives in trying to work with EPA, and Department of 
Commerce, and at the local level engaging a number of partners 
depending upon the cluster and the organizations to try to get 
folks collaborating as best we can. We have also worked with 
the Appalachian Regional Commission. We worked with NIST. The 
MET program has been around for a long time and certainly SBDC, 
in understanding how those operate in the local communities and 
partner with those that we try to reach out to at the Federal 
level.
    So, I think we have got a good running start, if you will, 
because we have had some successes. And the INEAP group, I 
think again is a good platform to start looking at how we raise 
that to the next level.
    Ms. Sanchez. Great. Thank you.
    Julie.
    Ms. Weeks. So, you asked for five recommendations for you 
to consider so I jotted down five, being the numbers person.
    Ms. Sanchez. Thank you.
    Ms. Weeks. First of all, keep calling these kinds of 
roundtables because it forces us to get out of our daily 
routine with blinders on, doing our jobs and start talking to 
one another more because I mean it is very helpful.
    Secondly, I would say demand data on the diversity of the 
programs. And I think hearing what Holly is going to be doing 
with expanding what they are gathering from the new EDMIS 2.0 
or whatever is going to go a long way to help the Women's 
Business Center program in particular tell its story. But I 
think if you keep demanding that kind of information, that will 
be very important.
    It strikes me also that the Census Bureau could be part of 
this conversation. Every five years there is a quinquennial 
business survey, and that is not nearly often enough to find 
out really what is going on in the economy. They are like the 
mother lode of data on businesses.
    The Kauffman firm survey does a really good job of 
following a cohort in one year. But you are winding that up in 
a year or so, right?
    Doing something in-between census years, asking the Census 
Bureau to provide more information, they do it on an annual 
basis with employer businesses. Maybe there is something they 
can do with the 80 percent of firms that are not employer 
businesses. So, I would suggest having a conversation with the 
economic statistics people at the Census Bureau.
    Fourth, I think in the Special Jobs Act or other programs 
where there are some special allocations made for certain 
programs and projects, the Women's Business Center program is 
kind of forgotten as it is a small program, a drop in the 
bucket compared to SBDC and SCORE.
    But as we now know, more than half of the clients of 
Women's Business Centers are now existing business owners, and 
hey, we could play a role in growth-oriented enterprise 
developments and the job creation. We already do.
    And then finally in pinging on that, when we get to the 
whole idea of reauthorization, I mean, I know maybe this is a 
little too bold, but we the Women's Business Center program 
essentially have one hand tied behind our back when it comes to 
being a full and active player in growth-oriented 
entrepreneurship.
    The legislative intent of the Women's Business Center 
program, which I am perfectly in support of, has a social 
function as well as an economic one. But it sort of requires 
that all the money that we get from the SBA in the grant which 
is 40 percent of the full budget of all of the Women's Business 
Centers be focused on socially and economically disadvantaged 
and pre-start business.
    All of the work that the Women's Business Centers are now 
doing from client demand and from a need for helping existing 
business owners grow is something we are doing with the support 
of state or local governments, foundations, corporations, that 
sort of thing.
    Perhaps we can widen the mandate from a public sector 
perspective on what Women's Business Centers can do.
    Ms. Sanchez. Great. Thank you.
    Leo.
    Mr. Bottary. First of all, thanks so much for the 
invitation here today. It is always such a great learning 
experience to come here and to engage and participate in these 
kinds of forums and learn so much about the good work everyone 
is doing.
    I think that Bill offered a really important distinction 
between collaboration and coordination today, and I think 
opportunities to coordinate activities between the public and 
private sector I think there is great opportunity there.
    I think for us it is a matter of working harder and doing a 
better job to learn about all the great things that are going 
on here and how hard people are working here and making sure 
that we communicate it to our members and out to the business 
community.
    And conversely, I would really encourage and invite 
formally any member of this Committee who would like to go to a 
Vistage group meeting, we have 17 of them here just in 
Washington, DC, and more importantly and maybe more 
appropriately for them to go to a Vistage meeting in their home 
state where I think there is not only an opportunity to hear 
directly from the CEO members about what their greatest 
challenges are and how Washington can be most beneficial there. 
But also it gives the Senator an opportunity to speak very 
specifically to what is going on here in Washington, because I 
will tell you that every time I come here I leave, I think, 
just really feeling wonderful about how hard everyone is 
working at all the work that is going on and the fact that we 
may be a for-profit organization but we are as mission driven 
as anyone out there when it comes to all of this.
    I think we are all really trying to accomplish the same 
things, and to the extent that we can coordinate that much more 
aggressively, I think would be my one thought contribution, I 
guess.
    Ms. Sanchez. Great. Thank you.
    Mr. Tymes. My one thought is to use the networks that we 
have. I mean, we have a tremendous infrastructure here between 
our resource partners, and it would always to me be so 
frustrating when Commerce has an entrepreneurship program, and 
Agriculture has an entrepreneurship program, and Department of 
labor has an entrepreneurship program.
    And that to me has always been something, and I do not know 
how we get it done, but there is no reason why, with the 
infrastructure that we have, the skill sets that we have, that 
ED programs drive entrepreneurship in this country, period.
    Ms. Sanchez. Great. Thank you.
    Mr. Yancey. Just very quickly. I know time is of the 
essence here. Three things that I wanted to hit that have 
already been said.
    What you can do, as Daryl said, is to give us really clear 
goals. What do you want to move, and allow us to move that the 
best way we know how within our programs.
    Two, to Tee's point, any barriers that exist that are 
hindering our clients from achieving their success need to be 
addressed in some fashion, because technical assistance can 
only overcome so much and there are a lot of things that need 
to be done that will make it easier for people to be successful 
in businesses and to create jobs and to move forward.
    And finally, to Julie's point, the way that this is going 
to stay top of mind is if we keep having these types of 
conversations. If we do not have these types of conversations, 
we will all get busy and we will get busy doing other things, 
not that they are not valuable, but they are not this.
    So, for those things that you believe, that Senator Snowe 
believes, that Senator Landrieu believes, that Meredith 
believes are important, we need to have ongoing communication 
and conversation around that.
    It is like Leo talked about the importance of TEC and being 
accountable. If we continue to have the conversation, 
accountability will occur here too.
    Ms. Sanchez. Great. Thank you.
    Diane.
    Ms. Dietz. So on that note, we encourage you to keep 
talking. On behalf of the Ranking Member and the Chair, we 
encourage you to keep talking. And I thank Ken for those brief 
comments.
    Ken was recently in Portland doing a SCORE event which was 
very well received, and Senator Snowe was happy to support the 
forum in Maine. So, we appreciate your work and your time, Mr. 
Yancey.
    I would like to ask one question before we leave and I am 
going to pose it to Scott. VBOCs are rather new. As Scott 
mentioned, there are 16 now, and I think they speak to a very 
specific part of the population right now that, in some states, 
double the national unemployment rate.
    The problems faced by returning veterans are unique and 
they are compounded by the sheer number of returning veterans, 
and when we see a larger drawdown in Iraq and Afghanistan, 
those numbers are going to continue to go up.
    Scott I think that VBOCs have a unique story to tell. These 
people have complex needs. I read one story about a soldier who 
deployed in 2003, and he said that he had to shut down his 
landscaping business; and then when he was deployed seven years 
later in 2010, he was able to keep it going by Skype and 
utilizing some of his employees' management skills.
    And so, people are being very innovative, and I think 
entrepreneurs are innovative. But I am interested to hear from 
you how the needs of veterans have changed, what the range of 
needs that you see every day, and how you are addressing them. 
Also, is there a common misconception among veteran 
entrepreneurs, whether it is finding a lender or business 
resources? Please speak to the veterans entrepreneurial 
outlook.
    Mr. Snair. Sure and I will make it quick.
    I do want to say there has been some of the buzzwords I 
heard today, duplication and efficiency. For anyone who has 
never visited a Small Business Development Center or SCORE 
office, I invite you to go.
    When you read these statistics and the number of companies 
that are helped by these offices and when you read about the 
number of jobs that are created by any particular Small 
Business Development Center, you would think that these are 
bustling places, bloated with lots of people when, in fact, 
they are very, very streamlined.
    Any given Small Business Development Center is very, very 
leanly staffed and I am always amazed when I visit the Small 
Business Development Centers, in some cases to collaborate and 
work with their veteran clients, I am amazed at the things that 
they can do with the small number of people any one of those 
centers has.
    It is funny. When I first started this program, I thought 
that what I was going to be doing was triaging veterans and 
placing them in a program that would help them start their 
business.
    And about two weeks into it, I said I am the program. I am 
not triaging anybody. I am the program. So, if you want to 
duplicate my services that will put us at two and I am okay 
with that.
    So, I would say that I complement what goes on at SCORE and 
what goes on at the Small Business Development Centers, but I 
do not see any bloat or duplication whatsoever amongst these 
folks or as I relate to them.
    About the biggest misconception I think that is out there 
among veterans, two of them I guess come to mind, and then I 
will cut it off.
    One very similar to what Ken says. They think there is free 
money out there, and there really is none. There are veteran-
tailored small business loans that are extremely similar to the 
7(a) SBA-backed loan. And unfortunately for veterans because a 
lot of times their lives are in turmoil, including their 
financial lives, because they are away from their banks when 
they are overseas, they come back and it is not that they are 
not paying their bills, they just had the capacity to pay them 
and call their lenders, their credit is no good, and that hurts 
them in getting started up.
    So, they think there is free money. There is not. And then 
they go for the loan and it is tough for them to get a loan 
because they have been away from their financial situation for 
a year to 15 months a clip.
    And then the second one does not really pertain to me but 
there is set aside contracting for veterans on a Federal level. 
A lot of them come in with the misconception that it is going 
to be easy for them to register, and it really is not.
    I think the VA unfortunately has swung the pendulum in the 
other direction in trying to avoid fraud by making the process 
so unwieldy that it is essentially blocking and scaring away 
legitimate veteran businesses, both startup and existing.
    So, those are the two things that I see going on right now 
that concern me. Thank you.
    Ms. Sanchez. Great. Thank you.
    I think we have hit our time limit. I want to say thank you 
very much to each and every one of you. I think this has been a 
really helpful, informative discussion, and I think it is going 
to be the first of many discussions that we will have on all of 
these topics and all of these programs as we continue through 
the Congress.
    So with that, I think we will close.
    Thank you.
    [Whereupon, at 12:31 p.m., the committee was adjourned.]








                      APPENDIX MATERIAL SUBMITTED


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                  <all>

</pre></body></html>
